WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-866

Dr. Emmanuel E. Ubinas-Brache, M.D. v Surgery Center of Texas, LP
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Supreme Court, U.S.
FILED

Please check the appropriate boxes:

JAN 2 4 2020

Ei Please enter my appearance as Counsel of Record for all respondents.

OFFICE OF THE CLERK

E There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar membe4.Signature

/ —L 3 — L-0

Date.
(Type or print) Name

Michael S. Alfred
111

Firm

❑ Ms.

D Mrs.

El Miss

Hallett & Perrin, P.C.

Address

1445 Ross Avenue, Suite 2400

City & State
Phone

Mr.

Dallas, Texas

214-953-0053

Zip
Email

75202

malfred@hallettperrin.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Mr. Charles E. Baruch

MICHAEL S. ALFRED

HALLETT&PERRIN

D 214.922.4121 F 214.922.4142
rnalfred@hallettperrin.com

January 24, 2020

VIA FIRST CLASS U.S. MAIL
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Dr. Emmanuel E. Ubinas-Brache v. Surgery Center of Texas, LP
Supreme Court Case No. 19-866

Dear Clerk:
We enclose the original and one copy of a complete copy of the Waiver and Appearance of
Counsel for filing in connection with the above- referenced matter. Please return a file-stamped
copy to me in the enclosed self-addressed, stamped envelope.
A copy of this letter and waiver are being provided to Dr. Emmanuel E. Ubinas-Brache by
First Class U.S. Mail.
Please do not hesitate to contact me should you have any questions.
Sincerely,
/s/ Michael- S. Alfred
Michael S. Alfred
MSA:eb
Mr. Charles E. Baruch
cc:

irlilAWMA..•.WiTrtiViA VaTTRAY521*
INARTAMIlbta

